MARK BRNOVICII
Attorney General

Office of the Attorney Ge neral
State of Arizona

JOSEPII KANEFIELD
Chief Deputy Attorney
General/Chief of Staff
Direct Phone No.: 602-542-8080
Joe.Kane lie ld@AZAG.Gov

October 26, 2020

By Electronic Filing
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
sharris@supremecourt.gov
Re: Brnovich, et al., v. The Democratic National Committee, eta/., No. 19-1257
Mr. Harris:
I represent the petitioners in the above-captioned case. Under Rule 37.3(a), petitioner
consents to the filing of amicus briefs in support of either or neither party, if filed within the time
allowed by the Court' s rules.
Pursuant to the Court's order, and the prior agreement of the parties, I am sending this by
electronic mail in addition to filing electronically, with no hard copy to follow. Should you wish me
to send a hard copy of the letter, I am happy to do so.

Joseph Kanefield
Chief Deputy I Chief of Staff
Counsel for Petitioners

cc:

Marc Erik Elias
Bruce V. Spiva
Counsel for Re~pondents (by electronic mail)
Jessica Ring Amunson
Sam Hirsch
Counsel for Respondent Katie Hobbs, in her
official capacity as Secretmy ofState ofArizona
(by electronic mail)
Michael A. Carvin
Counselfor Intervenors Below (by electronic mail)

2005 N Central Avenue Phoenix, Arizona 85004 -

Phone 602.542.4266 -- Fax 602.542.4085

